Report No. DODIG-2013-069                 April 19, 2013




     Defense Contract Management Agency Santa Ana
     Quality Assurance Oversight Needs Improvement
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector General
website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary Reports Distribution
Unit at auditnet@dodig.mil.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing at
auditnet@dodig.mil, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
CSI                           Critical Safety Item
DCMA                          Defense Contract Management Agency
FLSR                          First Level Supervisory Review
QA                            Quality Assurance
QAR                           Quality Assurance Representative
QASP                          Quality Assurance Surveillance Plan
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500



                                                                                               April 19, 2013

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
                           SANTAANA, CONTRACT MANAGEMENT OFFlCE

SUBJECT: Defense Contract Management Agency Santa Ana Quality Assurance Oversight
         Needs lmpmvement (Report No. DODIG-2013-069)

We are provjding this report ror your information and use. We considered management
comments on a draft ofthis report when preparing the final report. We determined the
nonresident quality assurance representatives assigned to four contracts for the Defense Contract
Management Agency Santa Ana, Californ ia, valued at about $278 million, did not adequately
perform or document their quality assurance surveiUance. Critical safety items must meet
contract quality requjrements to provide an acceptable level of protection. As a result, Defense
Contract Management Agency Santa Ana officials provided lim ited assurance that L8,507 critical
safety items, consisting ofT-11 parachutes, oxygen masks, drone parachutes, and breathing
apparatuses, met contract requ irements.

The comments conformed to the requirements ofDoD D irective 7650.3 . Therefore. no fmther
comments are req1tired.                                                       '

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664~9077).



                                           ~Assis~lnspector
                                                                /             I
                                            ..- (   <~~~   L,       ., c..- --'   !' )..Lcec.c<Y: .c..   t -' L
                                            / acqu line L. Wicecarver            '-
                                           .                   General
                                             Acquisition and Contract Management
Report No. DODIG-2013-069 (Project No. D2011-D000CD-0248.000)                   April 19, 2013

               Results in Brief: Defense Contract
               Management Agency Santa Ana Quality
               Assurance Oversight Needs Improvement

What We Did                                               What We Recommend
We determined whether the Defense Contract                We recommend that the Director, DCMA
Management Agency (DCMA) Santa Ana                        Santa Ana contract management office:
contract management office performed quality              • verify that QARs developed adequate QA
assurance (QA) procedures and oversight of                   surveillance plans and performed process
contractors in accordance with applicable                    reviews and product examinations;
policies for critical safety items (CSIs). For this       • certify that the supervisory reviews of QARs
audit, we reviewed QA oversight of four                      were accurate, complete, and timely; and
contracts valued at about $278 million.                   • perform a risk analysis in coordination with
                                                             Service Engineers to identify QA risk areas
What We Found                                                and determine the need to recall or restrict
The DCMA Santa Ana quality assurance                         the use of CSI items previously accepted.
representatives (QARs) assigned to four
contracts did not adequately perform or                   Management Comments and
document their QA surveillance.                           Our Response
                                                          The Director, DCMA, responded for the
For all four contracts, QARs did not:
                                                          Director, DCMA Santa Ana contract
• develop QA surveillance plans to mitigate
                                                          management office. He agreed with
   risk,
                                                          recommendations that the Director, DCMA
• plan and perform reviews of key                         Santa Ana contract management office, verify
   manufacturing processes, and                           that QARs develop adequate QA surveillance
• execute or adequately perform product                   plans and perform process reviews, and product
   examination before final acceptance.                   examinations. He agreed with
                                                          recommendations that the Director, DCMA
This occurred primarily because first level               Santa Ana contract management office, perform
supervisors did not provide oversight of the              a risk analysis to identify QA risk areas and
nonresident QARs to minimize the risk of                  review the actions of the first level supervisors
defective CSIs reaching the warfighter.                   related to inadequate oversight of QARs. He
                                                          partially agreed with the recommendation that
As a result, DCMA Santa Ana officials provided            the Director, DCMA Santa Ana contract
limited assurance that 18,507 critical safety             management office certify the supervisory
items, consisting of T-11 parachutes, oxygen              reviews of QARs were accurate, complete, and
masks, drone parachutes, and breathing                    timely. The comments were responsive, and the
apparatuses met contract requirements.                    actions met the intent of the recommendations.
                                                          Please see the recommendations table on the
                                                          back of this page.




                                                      i
Report No. DODIG-2013-069 (Project No. D2011-D000CD-0248.000)         April 19, 2013


Recommendations Table
        Management              Recommendations            No Additional
                               Requiring Comment         Comments Required

 Director, Defense Contract                            1.a, 1.b, 1.c, 2, 3, 4
 Management Agency Santa
 Ana contract management
 office




                                      ii
Table of Contents
Introduction                                                               1

      Objectives                                                           1
      Background                                                           1
      Defense Contract Management Agency Annual Statements of Assurance
             Identified Quality Assurance as a Weakness                    2
      Review of Internal Controls                                          3

Finding. Quality Assurance Surveillance for Critical Safety Items
            Needs Improvement                                              4

      Planning Surveillance Needs Improvement                              4
      Reviews of Key Manufacturing Processes Need Improvement              7
      Improving Product Examinations                                       8
      Improving First Level Supervisory Oversight                          9
      Conclusions                                                         10
      Recommendations, Management Comments, and Our Response              10


Appendixes

      A. Scope and Methodology                                            14
            Use of Computer Processed Data                                14
            Use of Technical Assistance                                   15
            Prior Coverage                                                15
      B. Defense Contract Management Agency Quality Assurance Criteria    16

Management Comments

      Defense Contract Management Agency Santa Ana
         Contract Management Office Comments                              18
Introduction
Objectives
The audit objective was to determine whether the Defense Contract Management Agency
(DCMA) was performing quality assurance (QA) procedures and oversight of contractors
in accordance with applicable policies for critical safety items (CSIs), such as parachutes,
fire resistant fabrics, pressurized oxygen masks, and chemical protective clothing. For
this audit, we reviewed QA oversight of four contracts, at the DCMA Santa Ana contract
management office, for parachutes, aviation oxygen masks, and breathing apparatuses.
DCMA Santa Ana did not have oversight of contracts for fire resistant fabrics and
chemical protective clothing that met our selection criteria. See Appendix A for
discussion of the audit scope and methodology, and prior audit coverage.

Background
According to DCMA, it provides a full spectrum of contract services that include QA
services to verify that contractors deliver products on time and at projected cost and meet
contract performance requirements. As of June 2012, 46 DCMA contract management
offices managed 337,000 active contracts with an obligated value of $1.7 trillion.
DCMA Santa Ana is a contract management office within the Western Regional
Command. At DCMA Santa Ana, about 366 civilian and military employees, with 1,504
active contractors, manage more than 20,337 contracts, valued at $38 billion.

DCMA QA Surveillance Overview
DCMA Instruction 226, “First Level Supervisory Review-QA,” August 2010, requires
that supervisors perform a first level supervisory review (FLSR) to evaluate the
surveillance procedures performed by quality assurance representatives (QARs).
Supervisors of personnel performing Government contract QA must schedule and
conduct periodic reviews to verify that QARs perform the work required in DCMA
Instructions, document results, and promptly address deficiencies. Appendix B contains
the DCMA Quality Assurance criteria.

DCMA performs QA oversight to verify products and services conform to contract
quality requirements before Government acceptance. DCMA Instruction 226-11,
“[Government Contract Quality Assurance] Surveillance Planning,” April 2010, requires
QARs to develop risk-based quality assurance surveillance plans (QASPs) to monitor
contractors’ performance. QARs should identify critical product characteristics and key
manufacturing processes at risk of producing defective products. In addition, QARs
should establish surveillance strategies and techniques to mitigate the risk of defective
products. Strategies include defining the frequency and types of process inspections and
product examination.

For the contracts we reviewed, DCMA assigned nonresident QARs to each of the four
contractors’ facilities. Nonresident QARs have oversight responsibility for multiple
contractor facilities.


                                             1
Contracts for CSIs
A CSI is a part, assembly, installation, or production system with one or more essential
characteristics that, if not in conformance with the design data or quality requirements,
would result in an unsafe condition that could cause loss or serious damage to the end
item or major components, loss of control, or serious injury to the user. We reviewed
four CSI contracts to evaluate DCMA Santa Ana’s performance of QA procedures and
oversight. Table 1 provides a summary of the contracts, products, contract amount, and
quantities purchased for the four contracts.

                            Table 1. Overview of the Four Contracts
        Contract              Issued            Product             Contract Value     Quantity
        Number                  By              Provided             (in thousands)   Purchased
                             NATICK
     W911QY-10-D-                            T-11 Parachute
                            Contracting                                $220,000        11,9071
      0003 (active)                             System
                             Division
                              Defense
     SPM4A7-07-D-             Supply           MBU-20/P
                                                                         57,613         5,9572
      3127 (active)           Center          Oxygen Mask
                             Richmond
                              Defense
     SPM4A7-10-C-             Supply
                                             Drone Parachute                428          293
     0568 (complete)          Center
                             Richmond
                             Defense
                             Logistics
     SPM8EJ-11-M-                               Breathing
                             Agency                                         150          350
     0155 (complete)                            Apparatus
                              Troop
                             Support

     Total                                                             $278,191        18,507
1
    Quantity purchased as of December 2011 according to the QAR.
2
    Quantity purchased from December 2006 through September 2011.

Defense Contract Management Agency Annual
Statements of Assurance Identified Quality Assurance
as a Weakness
DCMA identified QA as a weakness in its Annual Statements of Assurance for FYs 2009
through 2012. As a result, as of July 2012, DCMA revised QA Instructions and training
and continues developing a QA information management tool. In addition, DCMA
initiated FLSRs in August 2010. Subsequently, DCMA Santa Ana identified QA as a
weakness in its FY 2010 manager’s internal control reviews and Annual Statement of
Assurance. DCMA Santa Ana officials stated high contract turnover rate of contracts


                                                   2
received and closed per month, staff turnover, and inexperienced staff contributed to QA
deficiencies. DCMA Santa Ana began corrective actions in February 2010 in response to
the identified QA deficiencies. These corrective actions included internal operating
instruction revisions and training for QARs.

DCMA Santa Ana requested additional resources through a program objective
memorandum in May 2010. In January 2011, a DCMA Santa Ana management review
team closed corrective actions, such as internal operating instruction revisions and
training for QARs. An October 2011 DCMA Santa Ana mission review identified that
QA deficiencies defined in the 2010 management internal control review persisted.
Although DCMA Santa Ana planned to perform a follow-up manager’s internal control
review in March 2012, DCMA Santa Ana completed two—one in May 2012 and another
in September 2012.

In the May 2012 follow-up manager’s internal control review of contract technical
reviews and data collection and analysis, DCMA Santa Ana identified six findings and
two successful practices. The findings included that QARs did not perform data
collection and analysis consistently in accordance with DCMA Instructions. In addition,
a QAR did not maintain evidence supporting that he performed contract technical reviews
for contracts or modifications. The successful practices were that QARs used a
spreadsheet to track contracts they reviewed and the new Government contract QA log is
helpful to track corrective action requests.

In the September 2012 follow-up managers’ internal control review corrective action plan
of surveillance planning, delegations, and random sampling, DCMA Santa Ana identified
118 reportable conditions, including that QARs did not perform product exams, process
reviews, quality system audits, and data collection and analysis.

DCMA Santa Ana identified 118 reportable conditions and prepared 66 corrective action
plans. As of September 2012, DCMA Santa Ana had completed 31 corrective action
plans, but 35 remained open.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs operate as intended
and to evaluate the effectiveness of the controls. We identified an internal control
weakness: DCMA Santa Ana internal controls over the QA surveillance process of the
nonresident QARs were not effective for the four contracts reviewed. Supervisors did not
perform adequate reviews of the QARs’ performance. We will provide a copy of the
report to the DCMA senior official in charge of internal controls.




                                           3
Finding: Quality Assurance Surveillance for
Critical Safety Items Needs Improvement
The DCMA Santa Ana nonresident QARs assigned to four contracts, valued at about
$278 million, did not adequately perform or document their QA surveillance over the
contracts. Specifically, for all four contracts, QARs did not:

•   develop QASPs that explained how the QAR intended to mitigate the risk of
    defective CSIs. For example, the QAR for the oxygen mask contract did not include
    the frequency and intensity of a surveillance activity to verify oxygen masks met
    contract quality requirements.

•   plan and perform reviews of key manufacturing processes to monitor whether
    contractors produced items in accordance with contract requirements. For example,
    the QAR for the drone parachute contract stated he did not perform any reviews of
    key manufacturing processes because he had responsibility for overseeing
    37 contractors.

•   execute or adequately perform product examinations to verify whether final products
    met contract requirements. For example, the QAR for the T-11 parachute contract
    did not perform final product examinations for 25 shipments of 2,582
    T-11 parachutes.

This occurred primarily because first level supervisors did not provide adequate oversight
of nonresident QARs to minimize the risk of defective CSIs reaching the warfighter.
As a result, DCMA Santa Ana officials provided limited assurance that 18,507 critical
safety items, consisting of T-11 parachutes, oxygen masks, drone parachutes, and
breathing apparatuses, met contract requirements.

Planning Surveillance Needs Improvement
DCMA Santa Ana QARs did not develop QASPs that explained how the QAR intended
to mitigate the risk of defective CSIs. Specifically, some QASPs did not include
surveillance methodology, identification of CSIs, and critical characteristics. In addition,
some of the QASPs did not include the frequency and intensity of surveillance activities
and the customer communication requirements for monitoring the four CSI contracts to
mitigate quality and technical risks.

QASPs are either contract-specific or facility-specific. The QASPs for the four contracts
we reviewed covered the contractors’ facilities; however, the QARs did not develop
surveillance strategies that met minimum requirements for CSIs in the facility QASPs.
The QASPs should also include techniques to reduce risk factors and planned procedures
for surveillance activities.




                                             4
DCMA Instruction 226-3, “Critical Safety Items,” June 2009, requires QARs to
determine the appropriate strategy for initial and continuing surveillance of CSIs and
document the strategies in a surveillance plan. The instruction further explains, “DCMA
surveillance is intensively focused on Critical Safety Items (CSIs) to mitigate risk of
failure of those items.” In addition, DCMA Instruction 226-11, “GCQA Surveillance
Planning,” April 2010, requires QARs to develop risk-based QASPs to address each
characteristic, product, process, or system they identify as a potential risk. Table 2
identifies the requirements not met in the QASPs for each contract.

           Table 2. Minimum CSI Surveillance Requirements Not Met in QASPs

                                                                     Deficiency
    DCMA Instruction No. 226-3
     Minimum Requirements                       T-11          Oxygen       Drone     Breathing
                                              Parachute        Mask      Parachute   Apparatus
Surveillance methodology                           X                          X         X
Identification of CSI                                            X            X         X
Critical characteristics                           X             X            X         X
Frequency and intensity of
                                                                 X           X1
surveillance activities
Customer communication
                                                   X             X            X
requirements
1
    Beginning August 2011, the QASPs included frequency and intensity.

Minimum Requirements of Surveillance Strategy Not in QASPs
The QARs for the oxygen mask contract did not identify CSIs, critical characteristics,
frequency and intensity of a surveillance activity, or customer communication
requirements in the QASP as required by DCMA Instruction 226-3. The QAR could not
guarantee the customer received supplies that met the quality and technical requirements
in the contract because the QASPs did not contain the minimum required information for
the CSI surveillance strategy.

In addition, the QASP did not include surveillance activities, such as reviews of key
manufacturing processes, which match the risk level and verification that oxygen masks
met contract quality and technical requirements. For instance, the QAR documented the
risk level for acceptance testing as “low” because the QAR conducted weekly reviews.
However, DCMA Instruction 226-11 states the QAR should determine the level of risk
before he determines the frequency of surveillance. The QAR incorrectly based the risk
level on his then-current frequency of surveillance instead of first determining the risk
level and adjusting his frequency of surveillance to match. The QAR identified the risk
level as “low,” but higher risk should increase the intensity and frequency of surveillance.




                                                    5
If the QAR does not first determine the risk level, a temporary or replacement QAR
might decrease the frequency of review to match the risk level the previous QAR
                                         documented in the QASP. Therefore, the QAR
    DCMA Santa Ana is at greater         surveillance procedure may not occur frequently
    risk of accepting oxygen masks       enough, and replacement QARs may decrease
      that may not meet contract         their reviews and cause higher risk in acceptance
             requirements.               testing. As a result, DCMA Santa Ana is at
greater risk of accepting oxygen masks that may not meet contract requirements and
provide the intended level of safety to the warfighter.

Designing Surveillance To Reduce the Risk of Defective Items
QARs did not develop QASPs that minimized the risk of defective CSIs on the four
contracts. The QAR for the drone parachute contract did not adequately document his
rationale for the risk assessment of the potential for defective CSI manufacturing
processes. For example, in the March 2010 QASP, the QAR assessed facility risk for
12 key manufacturing processes as “moderate” without explaining how he reached that
conclusion. Additionally, the QAR did not identify the surveillance methods or the
frequency and intensity of surveillance activities needed to monitor the 12 key
manufacturing processes.

Furthermore, the QAR for the drone parachute contract developed an updated risk-based
QASP in August 2011 as required by DCMA instructions; however, the updated QASP
contained inconsistent risk information the QAR’s supervisor reviewed and approved in
November 2011. For example, the QAR included the following risk statement in the risk
statement generator section: “Product/items have major & critical characteristics that are
hidden at end item inspection, therefore requires in process inspection prior to next
operation.” DCMA Instruction 226-11 requires the QAR to transfer risk statements to the
risk profile and plan section of the QASP, to determine the cause of the risk and the
probability of risk occurring, and to establish surveillance methods to mitigate that risk.
However, none of the risk statements in the risk profile and plan tab addressed process
inspection before the next operation. Complete and accurate risk information is
necessary for the QAR and replacement QARs to mitigate risk and to update the QASP
without recreating the process. Before the QAR’s supervisor approved the QASP, she
should have verified that the QASP contained all the risk information.

DCMA Santa Ana officials stated that high contract turnover rate of contracts received
and closed per month, staff turnover, and inexperienced staff contributed to QA
deficiencies. The Director, DCMA Santa Ana, should establish procedures to verify that
QARs develop QASPs in accordance with DCMA Instructions. Additionally, the
Director should perform a risk analysis in coordination with Service Engineers for the
T-11 parachutes, oxygen masks, drone parachutes, and breathing apparatuses to identify
QA risk areas and to determine the need to recall or to restrict the use of CSIs previously
accepted.




                                             6
Reviews of Key Manufacturing Processes
Need Improvement
QARs did not plan and perform reviews of contractors’ key manufacturing processes to
monitor whether contractors produced items in accordance with contract requirements for
all four contracts. DCMA Instruction 226-13, “Process Review-QA,” June 2011,
requires QARs to “determine the suitability, adequacy, effectiveness, and consistency of
the supplier’s processes to meet contractual requirements and to provide a basis of
confidence for product/service acceptance.” The instruction states that applicable risk
impact determines the scope of each review and that a review of all process elements is
required when the risk impact is high. When the risk impact is moderate or low,
however, the review may cover all the elements or selected portions.

The QAR for the T-11 contract did not define the scope or document the parachute
stitching process reviews in the QASP. In addition, the QAR did not determine whether
the contractor’s stitching processes consistently produced conforming CSIs. Instead, he
reviewed stitching processes only if he identified defects. For example, the QAR waited
until final inspection to review T-11 parachute stitches, and whenever he noticed
anything he considered “out of line,” he reviewed the manufacturing process.

At one final inspection, he found oil stains on the parachute, which resulted in a non-
conforming product. The QAR determined that in the stitch process, the contractor added
too much oil to the stitching needle. According to Military Standard 849C,
“Department of Defense Standard Practice Inspection Requirements, Definitions and
Classifications of Defects for Parachutes,” July 2001, unclean material is a
“major/critical” defect. To prevent the reoccurrence of nonconforming CSIs, the QAR
should plan and perform contractor manufacturing process reviews in compliance with
DCMA Instructions and the QA letter of instruction. The letter provides detailed
instructions to the QAR to perform specific tasks and oversight requirements to monitor
product quality and consistent process performance on the part of the contractor.

QARs for the oxygen mask contract did not perform manufacturing process reviews from
                              May 2009 through May 2011. QARs accepted 3,028
  QARs for the oxygen mask    CSI oxygen masks and approved shipment to the
   contract did not perform   warfighter. The QARs’ second-level supervisor
    manufacturing process     explained that she could not locate the QARs’ records.
   reviews from May 2009      As a result, DCMA had no assurance that the oxygen
     through May 2011.        mask contractor used consistent manufacturing
                              processes for the 3,028 CSI oxygen masks the QAR
accepted from May 2009 through May 2011.

Similarly, the QAR for the drone parachute contract did not review any key
manufacturing processes from July 2010 through June 2011. The QAR stated he did not
perform reviews of the key manufacturing processes because he oversaw too many
contractors. DCMA Santa Ana data showed that the QAR oversaw 37 contractors.




                                           7
The Director, DCMA Santa Ana, should establish procedures to verify that QARs plan
and review key manufacturing processes according to DCMA Instructions.

Improving Product Examinations
QARs did not execute or adequately perform product examinations before final
acceptance, as required by DCMA Instruction 226-14 “Product Examination-QA,”
October 2011, on the four contracts. Product examination is one method that QARs use
to detect and prevent defective CSIs before Government acceptance. QARs must record
product examinations and maintain records for data collection and analysis to monitor
contractors’ performance.

For example, the QAR for the T-11 parachute contract did not perform ripcord pull tests
as required by the contract. Test procedures for the ripcord pull tests required the QAR
to test how much force the jumper would need to pull out the ripcord; however, the
QAR’s document to support a ripcord test depicted the measurement of a ripcord’s
length. The QAR stated that he performed numerous ripcord tests, but he did not
document them and could not explain the reason for the lack of test documentation.

Furthermore, the QAR did not inspect 774 of the 810 parachute snap hook assemblies.
The QA letter of instruction required the QAR to inspect 10 percent of the 8,100 T-11
parachute snap hook assemblies accepted from July 2010 through November 2011.
However, the QAR inspected only 36, or 4 percent, of the 810 T-11 parachute snap hook
assemblies.

In addition, the QAR did not check required critical-to-quality measurements of T-11
parachutes for 25 of 82 shipments. The contract required the QAR for the T-11 parachute
contract to check critical-to-quality measurements during final acceptance inspection.
                                       The specifications required the QAR to measure
     The QAR did not perform           critical parachute parts and verify precise lengths,
          critical-to-quality          widths, symmetry, and so forth, for optimum
    measurements for the other         performance and user safety. The QAR inspection
  25 accepted shipments of 2,582       records show that he documented critical-to-quality
          T-11 parachutes.             measurements for 57 of the 82 T-11 parachute
                                       shipments. Accordingly, the QAR did not perform
critical-to-quality measurements for the other 25 accepted shipments of 2,582 T-11
parachutes, valued at $8.8 million.

The QAR for the T-11 parachute contract incorrectly selected lot sample sizes for final
acceptance testing. He divided 14 of the 82 shipments accepted from March 2011
through January 2012 into smaller sized lots of unknown size and then selected his
sample from the smaller lots. The QA letter of instruction requires the QAR to select a
sample size of 8 for shipments of 200 parachutes. The QAR incorrectly selected four
samples from the lots for final acceptance testing when he divided the shipment into two
lots. The QAR must base the sample size on the guidance for the specific lot quantity.
The QAR did not follow contract guidance or DCMA policy for the accepted lots.



                                            8
The Director, DCMA Santa Ana, should establish procedures to verify that QARs
performed product examinations according to DCMA Instruction 226-14.

Improving First Level Supervisory Oversight
For all four contracts, the first level supervisors did not provide adequate oversight of
QARs to minimize the risk of defective CSIs reaching the warfighter.
DCMA Instruction 226 requires supervisors of personnel performing Government
contract QA to schedule and conduct periodic reviews to verify that assigned personnel
perform work outlined in DCMA QA Instructions. This instruction requires the
supervisor to conduct a monthly work sample for each employee and a full review at
intervals of no greater than 6 months. Also, this instruction states that under no
circumstances should the work sample interval be longer than quarterly and the full
review greater than 12 months. This instruction states that first level supervisors must
conduct reviews using an established evaluation plan, document the review results, and
address QAR deficiencies promptly. To document the FLSR, DCMA created a form
with 20 sections to identify mandatory aspects of DCMA QA Instructions to review as
part of the supervisory review.

None of the first level supervisors completed timely or complete reviews of QARs’
performance for the four contracts. Specifically, the first level supervisor for the QAR on
the contract for:

   •   T-11 parachutes did not complete the FLSR; the supervisor completed only 4 of
       the 20 required QA sections in the supervisory review form.

   •   oxygen masks did not conduct monthly work sample reviews or schedule a full
       review within the 12-month interval; instead, the supervisor scheduled the next
       full review 14 months after the last full review. In addition, although she noted in
       the FLSR that the QAR did not complete a data analysis as specified in the QASP,
       she did not schedule or perform the required reevaluation.

   •   drone parachutes did not conduct his review until almost 13 months after the
       contract award. The review was incomplete because the supervisor addressed
       only 3 of the 20 required QA sections on the supervisory review form. The
       supervisor did not identify the QAR developed an inadequate QASP, the QAR did
       not review manufacturing processes from July 2010 through June 2011, and the
       QAR did not correctly select a lot sample size for product examination.

   •   breathing apparatuses conducted one FLSR in October 2011 and completed 19 of
       the 20 required QA sections but did not include two of the seven minimum
       requirements in the FLSR. For the seven minimum requirements, the supervisor
       did not include in the FLSR his evaluation methods and follow-up actions for
       areas needing improvement for the first article test and risk assessment.




                                             9
First level supervisors stated that the FLSR was extensive and time-consuming.
However, DCMA issued Instruction 226 in August 2010 requiring all first level
supervisors to review QAR performance.

The FLSR is a management internal control to verify that QARs performed QA activities
and provided a mechanism for QAR feedback on their performance. However, because
first level supervisors did not inform QARs they needed to correct deficiencies in their
QA surveillance activities, first level supervisors did not effectively implement the FLSR.

The QARs’ inadequate surveillance increased the risk that CSIs procured on the four
contracts did not meet the contract quality requirements. According to
DCMA Instruction 226-3, nonconforming CSIs “would likely cause serious injury or
death to the user.” The Director, DCMA Santa Ana, should review the actions of the first
level supervisors related to inadequate oversight of QARs and, as appropriate, initiate
administrative action.

Because the first level supervisors did not complete FLSRs in accordance with the
DCMA Instruction, the Director, DCMA Santa Ana, should establish procedures to
certify annually that all DCMA Santa Ana FLSRs are accurate, complete, and timely, as
required in DCMA Instructions. Establishing such procedures will help strengthen
controls that first level supervisors complete FLSRs in accordance with the DCMA
Instruction and that QARs both receive feedback on their performance and correct
deficiencies in their QA surveillance activities.

Conclusions
DCMA Santa Ana QA personnel did not perform adequate QA surveillance on four CSI
contracts valued at about $278 million. Although DCMA Santa Ana officials cited QA
as a significant weakness since 2010, DCMA Santa Ana actions did not substantially
improve QA surveillance for CSIs. As a result, DCMA Santa Ana QA officials did not
minimize the risk that about 18,507 CSIs met contract quality requirements and have
little assurance that the CSIs would provide the warfighter with an acceptable level of
protection. Improved QAR surveillance activities are essential to verifying that CSIs
conform to contract requirements before QARs accept them on behalf of the
Government.

Recommendations, Management Comments, and
Our Response
We recommend the Director, Defense Contract Management Agency Santa Ana
contract management office:

1. Establish procedures to verify that each quality assurance representative:

         a. develops quality assurance surveillance plans as required by Defense
            Contract Management Agency Instructions 226-3, “Critical Safety




                                            10
            Items (CSI),” June 2009; 226-10, “Risk Assessment-QA,” April 2010;
            and 226-11, “GCQA Surveillance Planning,” April 2010;

Management Comments
The Director, DCMA, responded for the Director, DCMA Santa Ana contract
management office. He agreed and stated that as of February 2013 first level supervisors
had developed and approved QASPs for all DCMA Santa Ana CSI contractors. He stated
that in 2012, DCMA Santa Ana began dedicating one day each week to developing
surveillance strategies and conducted seven workshops on developing QASPs. The
Director, DCMA, stated DCMA Santa Ana instituted internal controls that require audits
of QASPs to ensure compliance with DCMA policies and DCMA Santa Ana operating
instructions. He stated the audits would begin April 1, 2013. He stated quality group
leaders would complete a review of all quality assurance letters of instruction for CSI
contracts by June 30, 2013, to ensure that mandatory customer requirements are
incorporated into the QASPs and that DCMA CSI requirements are being met. The
Director, DCMA, stated the DCMA Santa Ana contract management office would
implement procedures to identify and track new CSI contractors by May 31, 2013. He
stated the new procedure would ensure that all CSI contractors receive proper
surveillance in accordance with DCMA policies.

         b. plans and reviews key manufacturing processes as required by Defense
            Contract Management Agency Instruction 226-13, “Process Review-
            QA,” June 2011; and

Management Comments
The Director, DCMA, responded for the Director, DCMA Santa Ana contract
management office. He agreed and stated that key manufacturing processes are now
planned, identified, and reviewed in accordance with DCMA guidance. He also stated
DCMA Santa Ana contract management office has and continues to use QA engineers to
assist QARs on process reviews and analyses at CSI facilities. The Director, DCMA,
stated individual performance plans require tracking and monthly reporting of process
reviews to the contract management office leadership. In addition, he stated a review of
the key manufacturing processes for the T-11 parachute in September 2012 resulted in
three corrective action requests. He stated a QA system audit on the drone parachute
contractor in March 2013, resulted in nine corrective action requests. He stated that
because of those corrective action requests, the contractors have taken the necessary
corrective actions or corrective actions plans are being developed.

         c. performs product examinations as required by Defense Contract
            Management Agency Instruction 226-14, “Product Examination-QA,”
            October 2011.

Management Comments
The Director, DCMA, responded for the Director, DCMA Santa Ana contract
management office. He agreed and stated the DCMA Santa Ana contract management



                                           11
office uses FLSRs, reviews of QAR work product samples, and the contract management
office-enterprise government contract quality assurance activity database to ensure QARs
perform product examinations in accordance with requirements. He stated DCMA plans
a review in April 2013 to verify the DCMA Santa Ana contract management office’s
compliance with the established procedures.

2. Perform a risk analysis in coordination with Services Engineers for the T-11
   parachutes, oxygen masks, drone parachutes, and breathing apparatuses to
   identify quality assurance risk areas and to determine the need to recall or
   restrict the use of critical safety items previously accepted.

Management Comments
The Director, DCMA, responded for the Director, DCMA Santa Ana contract
management office. He agreed and stated the DCMA Santa Ana contract management
office coordinated with the contract customers and completed a risk analysis for the T-11
parachutes. The Director, DCMA, stated that after further review of the drone parachute
contract, the drone parachute is a critical application item and not a CSI. He stated that
the QAR’s surveillance was based on the item being a critical application item and
therefore, no further action was required. The Director, DCMA, stated that, for the
oxygen masks, the DCMA Santa Ana contract management office contacted the
engineering support activity and requested a joint risk analysis be performed. He stated
the DCMA Santa Ana contract management office is still waiting for the engineering
support activity’s response and will continue to follow-up to ensure the risk analysis is
performed. The Director, DCMA, stated that for the breathing apparatus, a DCMA Santa
Ana contract management office review of the contractor’s manufacturing process was
performed to determine potential risks. Additionally, he stated that the user has not
identified any product failures from the items that have been shipped.

3. Review the actions of the first level supervisors related to inadequate oversight
   of nonresident QARs and, as appropriate, initiate administrative action.

Management Comments
The Director, DCMA, responded for the Director, DCMA Santa Ana contract
management office. He agreed and stated QA group leaders plan to review FLSRs and
communicate the results to the Director, DCMA Santa Ana contract management office
in 2013. He stated the Director, DCMA Santa Ana contract management office,
established a metric to track FLSRs. He stated DCMA developed an application to track
FLSR schedules and completion dates. He stated DCMA Santa Ana would fully
transition to this application by January 2014. The Director, DCMA, stated that group
and team leaders received an oral admonishment during their annual performance
reviews in 2012 for not fully executing the FLSR policy. The Director, DCMA, also
stated individual QA performance plans now include a rating element to measure
performance and adequacy of FLSRs.




                                           12
4. Establish procedures to certify annually that all first level supervisor reviews
   are accurate, complete, and timely according to Defense Contract Management
   Agency Instruction 226, “First Level Supervisory Review-QA,” August 2010.

Management Comments
The Director, DCMA, responded for the Director, DCMA Santa Ana contract
management office. He partially agreed and stated that DCMA policy does not require
the Director, DCMA Santa Ana contract management office, to perform an annual
certification. He stated the Director, DCMA Santa Ana contract management office,
reviews FLSRs for compliance, completeness, and timeliness. He stated that in 2012,
DCMA Santa Ana began monthly performance management reviews and quarterly
functional management review. He stated the reviews resulted in 100 percent completion
of FLSRs. He stated the Director, DCMA Santa Ana contract management office, would
document DCMA Santa Ana’s performance in their annual statement of assurance
submission to DCMA Headquarters. In addition, he stated all functional group leaders
performance plans include an element that requires them to demonstrate they regularly
evaluate and document the adequacy of FLSRs, provide feedback to the supervisor that
performed the FLSR, and request and follow-up on corrective actions.


Our Response
Comments from the Director, DCMA for the Director, DCMA Santa Ana contact
management office were responsive, and the actions met the intent of the
recommendations. No further comments are required.




                                         13
Appendix A. Scope and Methodology
We conducted this performance audit from August 2011 through February 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted this audit at DCMA Santa Ana and two of its subordinate offices: San
Diego and Ontario, California. We visited Airborne Systems North America, Santa Ana,
California; FXC Corporation, Santa Ana, California; Gentex Corporation, Rancho
Cucamonga, California; and U.S. Divers Company Incorporated, Vista, California.

We obtained open CSI contracts with corrective action reports managed by all DCMA
contract management offices. We nonstatistically selected the T-11 parachute contract,
valued at $220 million and managed by DCMA Santa Ana, based on its dollar value and
corrective action reports. We subsequently selected an additional 3 open CSI contracts
from a list of 139 at DCMA Santa Ana. DCMA Santa Ana did not have oversight of
contracts for fire resistant fabrics and chemical protective clothing that met our selection
criteria. The selected contracts enabled us to review QA operations at three facilities
managed under DCMA Santa Ana. In total, we reviewed four contracts in which QARs
accepted shipments of more than 18,507 CSIs, valued at about $278 million, from
December 2006 through December 2011.

We interviewed DCMA Santa Ana QARs, QA team leaders and supervisors, QA group
leaders, and contract management office Santa Ana officials. We interviewed key
personnel at Airborne, Gentex, FXC, and U.S. Divers. We toured contractors’ facilities
to observe manufacturing processes and associated QA controls. We observed QA
surveillance performed by each responsible QAR at each manufacturing facility.
Furthermore, we observed how QARs selected lot samples and performed product
examination of CSIs’ critical or significant characteristics. Production for the FXC
contract was completed; therefore, the QAR demonstrated his sample selection technique
from lots in a different contract.

We obtained and reviewed Federal Acquisition Regulation, Defense Federal Acquisition
Regulation Supplement, DCMA Instructions, and DCMA Santa Ana Operations
Instructions. We obtained and reviewed contract QA documents for the four CSI
contracts. We reviewed and analyzed base contracts, contract modifications, QASPs,
process reviews, product examinations, product quality deficiencies reports, contract
technical reviews, training records, receiving reports, a corrective action report, and a QA
letter of instruction.

Use of Computer-Processed Data
We did not rely on computer-processed data.



                                             14
Use of Technical Assistance
A mechanical engineer from the Technical Assessment Division, Office of the Deputy
Inspector General for Policy and Oversight, assisted with this audit. He accompanied the
audit team to DCMA Santa Ana and toured manufacturing facilities at Airborne Systems
North America, FXC, and U.S. Divers. He provided observations on DCMA QA
procedures and oversight.

The Technical Director, DoD Inspector General Quantitative Methods Division, reviewed
audit documents and advised us on the validity of QA sampling processes.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and DoD Inspector
General have issued seven reports discussing DCMA QA problems. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
Report No. GAO 12-83, “Defense Contract Management Agency: Amid Ongoing
Efforts to Rebuild Capacity, Several Factors Present Challenges in Meeting Its
Missions,” November 3, 2011

DoD Inspector General
Report No. DODIG-2012-060, “Defense Contract Management Agency’s Investigation
and Control of Nonconforming Materials,” March 9, 2012

Report No. D-2011-088, “Ballistic Testing for Interceptor Body Armor Inserts Needs
Improvement,” August 1, 2011

Report No. D-2011-030, “Ballistic Testing and Product Quality Surveillance for the
Interceptor Body Armor-Vest Components Need Improvement,” January 3, 2011

Report No. D-2010-051, “Defense Contract Management Agency Acquisition Workforce
for Southwest Asia,” April 8, 2010

Report No. D-2010-035,” Defense Logistics Agency Contracts for M2 Machine Gun
Spare Parts in Support of Operations in Southwest Asia,” January 11, 2010

Report No. D-2009-074, “Review of Defense Contract Management Agency Support of
the C-130J Aircraft Program,” June 12, 2009




                                           15
Appendix B. Defense Contract Management
Agency Quality Assurance Criteria
DCMA Instruction 226, “First Level Supervisory Review-QA,” August 2010, requires
supervisors of personnel performing Government contract QA to schedule and to conduct
periodic reviews to verify assigned personnel perform the work required in the
DCMA QA Instructions. The instruction also requires the supervisor to document review
results and promptly correct deficiencies.

DCMA Instruction 226-3, “Critical Safety Items (CSI),” June 2009, requires QA
personnel to determine the appropriate strategy for initial and continuing surveillance of
CSIs. Instruction 226-3 states that QARs are to document the CSI surveillance strategy
in a surveillance plan. As a minimum, the plan is to include:

           •   identification of CSIs,
           •   critical characteristics,
           •   important manufacturing processes,
           •   significant characteristics,
           •   surveillance methodology,
           •   intensity and frequency of surveillance,
           •   nonconforming material authority, and
           •   customer communication requirements.

DCMA Instruction 226-10, “Risk Assessment-QA,” April 2010, provides the
requirements for planning, performing, and documenting the risk assessment. Instruction
226-10 requires the Risk Profile and Plan to provide easily retrievable objective evidence
to justify decreasing or increasing the Government contract QA surveillance efforts. The
QAR should address six areas in the risk profile and plan the following: Facility Process
List; Risk Impact (Risk Statement Generator); Risk Statements (Risk Profile and Plan);
Performance Factors Assessment; Risk Causes; and Risk Likelihood Assessment (Risk
Profile and Plan). Instruction 226-10 also requires QA personnel to use the Risk
Statement Generator to develop risk statements and document those statements and their
associated risk impact rating (High, Moderate, or Low) on the Risk Profile and Plan.
Risk statements answer the question, “What do we want to make sure doesn’t happen?”
The Risk Statement Generator contains the minimum indicators associated with
conditions or circumstances that would typically indicate a higher impact or consequence
should the risk statement occur.

DCMA Instruction 226-11, “GCQA Surveillance Planning,” April 2010, requires QA
personnel to develop a risk-based Government contract QA surveillance plan. The
purpose of the Instruction is “to document a Government Contract Quality Assurance
(GCQA) surveillance plan that defines the methodologies and techniques to reduce the
likelihood of risk causes and establish a basis of confidence that the supplies meet the
quality and technical requirements of the contract.”




                                            16
Furthermore, Instruction 226-11 states:

       Surveillance plans shall identify or reference the planned surveillance activities that address each
       risk statement and risk cause identified during contract technical review and risk assessment. The
       plan shall address each characteristic, product, process, or system identified as a potential risk
       cause and identify the method(s), frequency, intensity (formerly level of effort), and if applicable,
       schedule of surveillance.

DCMA Instruction 226-13, “Process Review-QA,” June 2011, states, “Determine the
suitability, adequacy, effectiveness and consistency of the supplier’s processes to meet
contractual requirements and to provide a basis of confidence for product/service
acceptance.” Instruction 226-13 requires the following six key processes for QA
personnel to follow:

   •   determine processes to review,
   •   document the scope of each review,
   •   determine the appropriate review method for each process,
   •   conduct the process review for each process,
   •   document results, and
   •   notify the supplier of the results.

The Instruction states: “Items with CSI requirements have an associated list of important
manufacturing processes [that] may be used as a planning tool in performing Process
Review for any complex item.”

DCMA Instruction 226-14, “Product Examination-QA,” October 2011, states product
examination is to “determine the reliability of the supplier’s inspection system or quality
system/program to produce conforming product.” Instruction 226-14 states, “Product
Examination is a method to determine one or more physical characteristics of the
product.” Product examination consists of four techniques: inspection, testing, witness,
and verification. The product examination technique should be planned and identified in
the surveillance plan. Instruction 226-14 also requires the use of statistically valid
random sampling techniques.

DCMA Santa Ana Operation Instruction 11-OI-020, “DCMA Santa Ana GCQA
Surveillance Planning,” January 2011, states DCMA supervisors are to review and
approve all Surveillance Plans.




                                                   17
Defense Contract Management Agency Santa Ana Contract
Management Office Comments




                               18
19
20
21
22
23
